HHS/OIG-Audit--"Review of Executive Compensation at Medicare Contractors, (A-03-94-00004)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Executive Compensation at Medicare Contractors," (A-03-94-00004)
August 5, 1994
Complete
Text of Report is available in PDF format (1.82 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the top executives at three Medicare contractors received increases to their compensation
packages that were clearly in excess of the Department of Labor's Employment Cost Index (ECI). The ECI is a measure of
the compensation rate and is similar in concept to the Consumer Price Index. For the period under review the ECI increased
14.6 percent. In contrast, the average executive compensation at one contractor jumped 108 percent, at another the increase
was 57 percent, and at the third contractor the increase was over 35 percent. We recommend that the Health Care Financing
Administration consider establishing a ceiling on executive compensation increases that Medicare contractors can allocate
to the Medicare program.